                                                                 Issue Date
                                                                       September 30, 2007
                                                                 Audit Report Number
                                                                          2007-SE-1004




TO:        Jack Peters, Director, Region X, Office of Community Planning and
           Development, 0AD




FROM:      Joan S. Hobbs, Regional Inspector General for Audit, Region X, 0AGA

SUBJECT: The Tacoma Consortium, Tacoma, Washington, Did not Properly Administer Its
           HOME Investment Partnerships Program Grants


                                   HIGHLIGHTS

 What We Audited and Why

      We audited the Tacoma Consortium (Consortium) HOME Investment Partnerships
      Program (HOME) grants as a result of a risk assessment performed by the U.S.
      Department of Housing and Urban Development’s (HUD) Region IX Office of Inspector
      General (OIG). The audit objective was to determine whether the Consortium complied
      with HOME requirements, laws, and regulations. Specifically, we wanted to determine
      whether the Consortium (1) complied with the homeowner rehabilitation program
      requirements with regard to (a) homeowner eligibility, (b) the completion of code-
      required repairs, and (c) its own written rehabilitation standards and (2) complied with
      HUD procurement regulations.

 What We Found


      The Consortium generally administered HOME in accordance with HUD requirements.
      However, it violated HOME regulations when it drew down funds of (1) $71,594 for a
      homeowner who was not low income, (2) $48,916 for a homeowner whose income was
      not adequately documented, (3) $97,465 for projects that were not completed to code, (4)
      $18,340 for luxury improvements, and (5) $263,458 for rehabilitation activities that were
     not compliant with HUD requirements or its own written rehabilitation standards. In
     addition, contrary to HUD procurement regulations, it did not perform an independent
     estimate or cost analysis to determine whether $199,298 in contract change orders was
     reasonable.

What We Recommend


     We recommend that HUD require the Consortium to repay HOME from nonfederal funds
     $71,594 in grant funds expended for a homeowner who was not low income, $18,340 for
     luxury improvements and $97,465 for homeowner rehabilitation projects that did not
     meet all applicable local codes and rehabilitation standards at the time of project
     completion. In addition, we recommend that HUD require the Consortium to provide
     supporting documentation to ensure that HOME funds were not used for an ineligible
     applicant or repay from nonfederal funds the $48,916 expended for the project. We also
     recommend that HUD require the Consortium to provide independent cost estimates and
     analyses performed before receipt of change order proposals or repay HUD from
     nonfederal funds $199,298 for change orders that were not supported with the required
     cost analyses. Further, HUD should require the Consortium to implement policies and
     procedures so that its grant activities are carried out in accordance with applicable laws,
     regulations, and Consortium rehabilitation standards. This would put $263,458 in
     homeowner rehabilitation funds to better use over the next year.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We discussed the findings with the Consortium and HUD officials during the audit. We
     provided a copy of the draft report to auditee officials on September 12, 2007, and held
     an exit conference on September 18, 2007. The Consortium generally disagreed with our
     audit findings.

     The auditee provided its written comments to our draft report on September 26, 2007.
     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report. However, the exhibits it provided with its
     response are too voluminous to include in the report, but are available upon request.




                                              2
                           TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
   Finding 1: The Consortium Did Not Always Comply with Homeowner                  5
              Rehabilitation Program Requirements
   Finding 2: The Consortium Did Not Perform Independent Cost Analyses for         14
              Change Orders

Scope and Methodology                                                              17

Internal Controls                                                                  18

Appendixes
   A.  Schedule of Questioned Costs and Funds to Be Put to Better Use              19
   B.  Auditee Comments and OIG’s Evaluation                                       20
   C. Criteria                                                                     73
   D. Schedule of Questioned Costs by Recommendation and Integrated Disbursement   74
      and Information System Number
   E. Schedule of Homeowner Rehabilitation Projects Funded by Integrated           76
      Disbursement and Information System Number




                                           3
                      BACKGROUND AND OBJECTIVES

HOME Investment Partnerships Program

The HOME Investment Partnerships Program (HOME) was created by Title II of the Cranston-
Gonzalez National Affordable Housing Act, as amended, and is regulated by 24 CFR [Code of
Federal Regulations] Part 92. HOME funds are awarded annually as formula grants to
participating jurisdictions. The purpose of HOME is to expand the supply of decent, safe, and
affordable housing for very low-income and low-income persons and to strengthen public-
private partnerships in the production and operation of such housing. HOME gives participating
jurisdictions discretion over which activities to pursue. Eligible activities include acquisition,
rehabilitation, new construction, and tenant-based rental assistance. HOME is the largest federal
block grant to state and local governments designed exclusively to create affordable housing for
low-income households.

Tacoma Consortium

The Tacoma Consortium, a HOME participating jurisdiction, is comprised of the cities of
Tacoma and Lakewood, Washington. Tacoma, through the Tacoma Community Redevelopment
Authority (Authority), serves as the lead fiscal and reporting agency for the Tacoma/Lakewood
HOME Consortium. The Authority is a municipal corporation and consists of a board of
directors and two full-time employees. It is otherwise staffed by the Housing and Development
Divisions of Tacoma’s Economic Development Department. The staff liaison for the board is
the Tacoma Housing Division’s program manager.

Tacoma and Lakewood have their own policies and procedures. While the policies and
procedures are similar, they do have differences, which will be discussed in other sections of the
report.

The Consortium receives approximately $2 million per year in HOME funds. More than half of
the HOME grants awarded to the Consortium are loaned to nonprofit developers for affordable
housing activities. The remaining grant funds are used for rehabilitation of single-family homes
and tenant-based rental assistance. Lakewood receives approximately $500,000 per year through
Tacoma for its HOME program activities.

Our overall audit objective was to determine whether the Consortium administered its
homeowner rehabilitation program activities in accordance with applicable HOME regulations
and requirements. Our specific objectives were to determine whether the Consortium

(1) Complied with the homeowner rehabilitation program requirements with regard to
       (a) homeowner eligibility,
       (b) the completion of all code-required items, and
       (c) its own written rehabilitation standards and
(2) Complied with HUD procurement regulations.



                                                4
                                 RESULTS OF AUDIT

Finding 1: The Consortium Did Not Always Comply with Homeowner
Rehabilitation Program Requirements

The Consortium did not always comply with homeowner rehabilitation program regulations
when it funded (1) a rehabilitation project for a homeowner who was not low income, (2)
homeowner rehabilitation projects that did not meet all applicable local codes and rehabilitation
standards at the time of project completion, and (3) homeowner rehabilitation activities that did
not comply with Consortium written rehabilitation standards. This condition occurred because
the Consortium failed to ensure that it understood and complied with HOME requirements. It
also failed to implement adequate procedures. As a result, these funds were not available for
eligible HOME projects and activities



 The Consortium Did Not
 Always Determine Income as
 Required by HUD


       Federal regulations at 24 CFR [Code of Federal Regulations] Part 92 define low-income
       families as “families whose annual incomes do not exceed 80 percent of the median
       income for the area, as determined by HUD with adjustments for smaller and larger
       families...” Participating jurisdictions must calculate the income of the family by
       projecting the current rate of income of the family. Annual income must include income
       from all family members. The participating jurisdiction is not required to reexamine the
       family’s income at the time the HOME assistance is provided unless more than six
       months has elapsed since the participating jurisdiction determined that the family
       qualified as income eligible.

       The Consortium did not always

           •   Obtain income information for all family members including young adults
               considered part of the household and
           •   Reexamine the family’s income at the time the HOME assistance was provided
               when more than six months had elapsed since the Consortium determined that the
               family qualified as income eligible.

       HOME Funds Were Provided to a Homeowner Who Was Not Low Income

       Lakewood provided $71,594 in homeowner rehabilitation assistance to an applicant
       whose income exceeded 80 percent of the median income. During the application
       process for HUD project number 1076, a 21-year-old college student was added to the


                                                5
     household because he was a dependent on the applicant’s income tax return. However he
     had income that was not considered. Consequently, the homeowner’s income exceeded
     the HUD limit for the area and household size. In addition, if the student was not a
     member of the household, the income would still exceed the limit and the family would
     still not be eligible for assistance.

     The Consortium Did Not Always Obtain Income Information for All Family Members

     The Consortium did not always obtain income information for all family members as
     required. According to HUD guidance, applications should be submitted for all
     household members who are 18 years old or older. The Consortium did not obtain
     applications or income documentation for all household members for three projects as
     follows:

        •   In project number 1076 (discussed above), the Consortium should have
            determined if he lived in the home or required income information because he
            was over 18 years old.
        •   For project number 882, the Consortium did not obtain an application or any
            income information for a 20-year-old household member. Therefore, we could
            not determine whether $48,916 in HOME funds was used for an eligible
            applicant.
        •   There was a note in the file for project number 1189 stating that two family
            members were full-time students, but the file did not include documentation to
            support the note. However, since the other adults in the household did not have
            any taxable income, the family would probably still be eligible with or without the
            income of the full-time students.

     The Consortium Did Not Always Reexamine Income as Required by HOME

     The Consortium did not always reexamine the family’s income at the time the HOME
     assistance was provided, even when more than six months had elapsed since the
     participating jurisdiction determined that the family qualified as income eligible. The
     Consortium did not reexamine income for at least 12 of the project applications. In other
     cases, there was a note in the file stating that income was reexamined, but the file did not
     include any documentation to support the statement.

Code Requirements and
Rehabilitation Standards Were
Not Always Met at Project
Completion

   To be eligible for HOME funding, homeowner rehabilitation projects must meet all
   applicable local codes and rehabilitation standards at the time of project completion. Six
   projects violated these requirements. Specifically,




                                              6
•   One project file did not contain sufficient evidence that the work was completed to
    code. An in-process roof repair inspection was not conducted as required. The roof
    continued to leak for more than a year after project completion in spite of continued
    attempts by the contractor to fix the roof (project number 968).

•   One project was never completed due to a dispute between the homeowner and two
    different contractors. The homeowner refused to allow the project to be completed.
    As a result, all of the code-required repairs were not completed, and a final inspection
    was not conducted (project number 865).

•   Two projects were canceled after the contract date but before significant
    rehabilitation. The Consortium charged these preliminary expenses to HOME, but
    because the projects were canceled, the required code violation corrections were not
    made (project numbers 1206 and 1281).

•   One project funded with HOME funds was not a full rehabilitation and did not ensure
    that all code-required repairs were completed. According to file information, the
    Consortium was going to use Tacoma’s minor home repair fund to pay for the repairs,
    but HOME funds were inappropriately used instead (project number 871).

•   Code-required repairs were deleted from the bid specifications for one project
    because the initial bids were higher than the available loan amount. This project had
    yet to be started so as a result of our discussions, Lakewood agreed to modify the
    contract bid specifications so that all code-required repairs would be completed
    (project number 1303).

      Grant     Project                      Reason project          Ineligible
      year      number        City             ineligible             amount
                                          Project not completed -
      2002     865         Tacoma                                     $32,736
                                         dispute with homeowner
                                         Not a full rehabilitation
      2002     871         Tacoma                                       $6,567
                                                 project
                                         Required inspections not
      2001     968         Lakewood       conducted, roof repair      $46,773
                                                  leaks
                                          Project canceled before
      2004     1206        Lakewood                                     $4,922
                                                completion

                                          Project canceled before
      2005     1281        Tacoma                                       $6,467
                                                completion

                                         Code violations deleted
      2006     1303        Lakewood                                   $69,000
                                          (project in process*)
                                        Total ineligible               $97,465
     * Not included in total amount because project had not been completed.


                                         7
    Homeowner Rehabilitation
    Activities Were Not Always
    Compliant with HOME
    Requirements and Consortium
    Written Rehabilitation
    Standards

        HOME requirements stipulate that participating jurisdictions must have written
        rehabilitation standards to ensure that projects are decent, safe, and affordable and only
        allow amenities of a nonluxury nature. HOME funds may be used to bring housing up to
        local codes and standards, to repair or replace major housing systems, and for general
        property improvements of a nonluxury nature. Amenities in HOME-assisted housing
        should be comparable to amenities in the area’s unassisted housing as long as they do not
        constitute luxury items. Within these broad guidelines, a participating jurisdiction should
        determine what nonluxury amenities are suitable for its area. It must also have written
        standards for rehabilitation that ensure that HOME-assisted housing is decent, safe, and
        affordable. In addition, its standards should ensure that HOME-assisted units meet local
        codes and standards.

        The Consortium’s Written Rehabilitation Standards Only Contained Minimum
        Requirements

        The Consortium’s written rehabilitation standards contained the minimum requirements
        to meet local housing codes and standards. However, these standards did not define what
        nonluxury amenities were suitable for the area. Instead, the Consortium used a
        percentage limit for the total general property improvements allowed for projects. These
        general property improvements were also referred to as modernization, desires, or wants.
        Both Lakewood and Tacoma limited these types of repairs to 20 percent 1 of the total
        contract price.

        The Consortium Did Not Have Adequate Controls to Ensure Compliance with Its
        Requirements

        Although both Tacoma and Lakewood limited general property improvements to 20
        percent, they had no controls in place to ensure that the limit was not exceeded. After the
        Consortium inspected the property, a housing specialist prepared a minimum housing
        inspection code form. The form included cost estimates for code-required repairs,
        recommended repairs, and general property improvements but did not include any
        percentage calculations. Following the inspection, the housing specialist and owner
1
  In Tacoma’s policy, dated in June 1994, it raised its limit for general property improvements to 40 percent. The
limit was 20 percent when new guidelines were issued in June of 2006. However, the summary of changes did not
mention the change from 40 percent to 20 percent, and Tacoma staff were unable to provide evidence of when the
change was made. In addition, the housing manager stated that even though the limit was 40 percent, he could not
think “of any instances when we exceeded the 20percent.” Therefore, since the limit was 20 percent, Tacoma staff
told us they never exceeded 20 percent, and there was no documentation to show exactly when the limit was
lowered, we used 20 percent for our entire audit period.


                                                         8
together determined the total scope of the work as detailed in the bid specifications. The
total costs in the bid specifications were all most always higher than on the inspection
form. However, no one verified that the general property improvements were within the
limit.

In addition, the Consortium allowed a contingency fee of up to 10 percent of the contract
price for correction of deficiencies discovered after construction commencement.
However, the fee was often used for general property improvements if it was not needed
for correction of deficiencies. The percentage limit was not considered when additional
general property improvements were allowed using this contingency fee.

Nine projects exceeded the general property improvements limit by $38,698. In addition,
$84,776 in contingency fees were spent on general property improvements. To comply
with its policy, the Consortium should have used these HOME funds for required repairs
rather than general property improvements.

The Consortium Did Not Have Any Controls to Ensure That Repairs Were of a
Nonluxury Nature

The Consortium’s limit on general property improvements did not ensure that only items
of a nonluxury nature were provided to HOME projects. For project number 1189, funds
were provided for amenities that were not comparable to amenities in the area’s
unassisted housing and could be construed as luxury items. The project received
excessive general property improvements including $6,000 for a marble tile countertop;
$4,019 for custom ordered solid wood double entry doors that were originally scheduled
to be repaired, not replaced; and $6,421 for a heat pump to supplement the existing
furnace. Further, due to the addition of the heat pump, a new $1,900 service panel was
required. The total value of these improvements was $18,340. Considering the minimum
requirements in the property standards and the quality of amenities provided for
unassisted housing in the area, the items would be considered a luxury.




                 Marble tile countertops and special order doors




                                         9
                                              Exterior of home 2

Lakewood Made Additions and Reconfigured Walls Contrary to Its Own Policy

        Lakewood’s policy states that adding an addition or reconfiguring walls is ineligible
        unless it is due to handicap accessibility issues. However, on two projects, Lakewood
        made an addition or reconfigured a room. However, these applicants did not require
        handicap accessibility.

        On project number 975, a poorly constructed enclosed patio that was used for storage was
        removed due to major structural problems. Rather than just repairing the exterior, the
        roofline was restructured, the ceiling reconfigured, and the room was again enclosed and
        finished. The Authority approved funds in addition to the initial loan so that the
        reconfiguration could be completed. The funds would have been better used for another
        homeowner rehabilitation project, rather than to reconfigure a room for a household size
        of one. The homeowner did not need the room due to accessibility issues. Based on the
        bid specifications, we estimate that $26,800 was expended for the reconfiguration to the
        home.




                              Enclosed porch before and during demolition

2
  Lakewood obtained an after-rehabilitation appraisal for the home, and it came in just below HOME guidelines.
However, when Lakewood requested the appraisal, it told the appraiser, “Need an appraisal AS SOON AS
POSSIBLE to demonstrate that the ‘after-rehabilitation’ value does not exceed $288,700 after completion of the
proposed scope of work.” This statement could have influenced the result of the appraisal.


                                                       10
               Inside before demolition and during reconstruction




                   Inside and outside finished (before painting)


A major addition was made to a home for handicap accessibility for the applicant for
project number 1214. According to file documents, there was no immediate need for the
home to be handicap accessible. This documentation stated that the applicant “may need
some handicap accessibility items” due to arthritic changes in her arms and legs. “This
will affect her mobility in the future.”

The housing coordinator included a note in the file discussing construction needs. It
stated that the current bathroom was “too small to convert to an ADA [Americans with
Disabilities Act] approved bathroom.” However none of the file documents indicated
that the applicant needed an “ADA approved bathroom” at the current time. According
to a statement signed by two of her doctors, within the next five to ten years, she would
require increasing assistance in performing common household activities. She also “will
eventually find herself on a walker, and, ultimately a wheelchair.” However, the doctors’
statements said that as her condition became more severe, she might have to be relocated
to an assisted-living facility, rather than staying in the home. Therefore, an addition to
the home was not necessary for the applicant at that time. Based on the bid
specifications, we estimate that $44,184 was expended for the addition to the home.




                                        11
                                   Before rehabilitation




             After rehabilitation (Deck was not paid for with HOME funds.)


Tacoma’s Monitoring of
Lakewood Was Not Adequate


    Tacoma, as lead agency, was required to monitor Lakewood’s grant activities. On
    October 14, 2005, the Seattle Office of Community Planning and Development
    conducted a monitoring review of the Consortium. In that review, it reported that
    Tacoma had not monitored Lakewood annually as required by 24 CFR [Code of Federal
    Regulations] 2.504(a).

    On August 14, 2006, Tacoma issued a monitoring report on Lakewood. The report did
    not mention any issues related to income documentation, although project number 1076,
    which included the ineligible applicant discussed above, was selected for review. The
    Tacoma program auditor noted that the income documents were complete, although there
    was a note in the project file that stated, “Please provide proof of income for all adults
    (age 18 + over) living in the home” and there was no documentation in the file that
    addressed the income for the young adult in the home. In addition, one of the questions


                                            12
     on the checklist stated, “Is the work write-up consistent with the PJ’s [participating
     jurisdiction] written rehabilitation standard?” The program auditor responded, “Do you
     have written rehabilitation standards.” There was no followup noted on the checklist or
     anything in the report concerning rehabilitation standards.

Conclusion


     While the Consortium had written rehabilitation standards, management controls were
     not adequate to ensure compliance with those standards. Tacoma, as lead agency, needs
     to implement adequate controls over documenting compliance and monitoring of HOME
     activities. Properly documenting compliance and monitoring will ensure that HOME
     funds are used for eligible activities and are adequately supported.

Recommendations

     We recommend that the director of the Region X Office of Community Planning and
     Development require the Consortium to

        1A. Repay from nonfederal funds $71,594 expended for an ineligible applicant,
            $97,465 for projects not completed to code, and $18,340 for luxury
            improvements.
        1B. Provide supporting documentation to ensure that HOME funds were not used
            for an ineligible applicant or repay from nonfederal funds the $48,916 expended
            for the project.
        1C. Establish and implement adequate procedures to ensure that its HOME
            rehabilitation program activities are carried out in accordance with program
            regulations and requirements to make $69,000 available for eligible projects.
        1D. Consider clarifying its written rehabilitation standards and implementing
            controls to make $123,474 available in the next year for code-required repairs
            and anticipated violations to ensure that the home is decent, safe, and sanitary,
            rather than spending it on excessive general property improvements desired by
            the homeowner.
        1E. Establish and implement adequate procedures so that inappropriate building
            additions are not made. This should make $70,984 available for allowable
            rehabilitation projects in the next year.
        1F. Establish and implement adequate procedures so that ineligible applicants are
            not approved for the program.
        1G. Improve the monitoring of the Lakewood homeowner rehabilitation activities.




                                            13
Finding 2: The Consortium Did Not Perform Independent Cost
Analyses for Change Orders
The Consortium did not perform a written independent cost analysis for change orders as
required by HUD procurement standards. This condition occurred because the Consortium
failed to ensure that it understood and complied with procurement regulations. It also failed to
establish and implement adequate procedures. As a result, there is no assurance that $232,868 in
change orders was reasonable (see appendix D for a listing of change order amounts questioned
by project).




    HUD Requires an Independent
    Cost Analysis for Change
    Orders

         HUD procurement regulations in 24 CFR [Code of Federal Regulations] 85.36 require
         that grantees perform a cost or price analysis in connection with every procurement
         action including contract modifications. The regulations state that “… as a starting point,
         grantees must make independent estimates before receiving bids or proposals to
         determine the reasonableness of the proposed change order.” HUD guidance specifies
         that “The rehabilitation contract should not allow for changes in the work write-up
         without an authorized change order signed by the homeowner, contractor and
         rehabilitation specialist. ... The specialist must verify cost changes as reasonable.”
         Grantees are required to maintain records to detail the independent estimate. The
         procurement standards state that grantees “will maintain records sufficient to detail the
         significant history of a procurement.”

    The Consortium Did Not
    Perform Independent Cost
    Analyses

         There was no evidence in the homeowner rehabilitation project files that independent cost
         estimates were performed before change order proposals were received. We reviewed 44
         completed project files to determine the amount of the change orders. The Consortium
         had change orders for 95 percent of its projects. None of the $232,868 3 in change orders
         had the required independent cost estimate or analysis.

3
  The total amount of change orders represents additions to the contract bid specifications. This is the amount that
requires an independent cost estimate and analysis. We did not offset the amounts for contract deletions. The
difference between total change orders without cost estimates and the amount in the recommendations is due to the
duplication of questioned costs within a project. See appendix D.


                                                         14
     The Consortium did not have written policies and procedures for determining the
     reasonableness of the change orders, only for issuing them. The contractors submitted
     change order proposals for the additional required work. The Consortium then prepared a
     form that stated, “The Tacoma Community Redevelopment Authority, with the consent
     and agreement of the owner and contractor, does hereby issue this change order…” This
     form described the changes in the repair specifications. The Tacoma change orders were
     signed by the homeowner, contractor, and housing director. However, contrary to HUD
     guidance, the Lakewood change orders were only signed by the homeowner and
     contractor.

     Tacoma’s housing manager stated that “in 4(f)(1) where it states that ‘there must be a
     price or cost analysis in connection with every procurement action including contract
     modification,’ does not state that there will be ‘written’ bids and analysis for every minor
     change; simply that there will be an analysis performed. … Given the years of experience
     by our rehab staff, including the division manager, I believe that there is a very
     conscientious review and analysis of every change order that is executed.”

     We asked Lakewood if it had any independent cost estimates for the change orders we
     reviewed. Lakewood stated, “In response to your request to review the performance of a
     cost/price analysis in connection with change orders, an intellectual analysis is performed
     based upon the knowledge and construction experience of our Housing Repair
     Coordinator in determining a reasonable cost.”

     While Tacoma and Lakewood staff may have had significant experience, an independent
     review of the cost estimate and analysis by management and auditors cannot be
     performed unless it is in writing. Since change orders are sole source procurements, it is
     imperative that they be reviewed for reasonableness; the review should be documented.

Conclusion



     The Consortium did not have adequate procedures and management controls to ensure
     that sole source procurements were performed in compliance with HUD procurement
     standards. Tacoma, as lead agency, needs to implement adequate controls to properly
     monitor and ensure that its procurement policies are followed, including maintaining
     records sufficient to detail the significant history of a procurement activity. Effective
     procurement policies will ensure that services are obtained at the lowest price.

Recommendations

     We recommend that the director of the Region X Office of Community Planning and
     Development require the Consortium to




                                              15
        2A Provide supporting documentation for the $199,298 4 in unsupported costs including
        the establishment of the reasonableness of costs and, if support can not be obtained, repay
        the HOME program from nonfederal funds.

        2B. Establish and implement adequate procedures to ensure that its HOME change
        orders are carried out in accordance with HUD regulations and requirements.




4
 The difference between cost identified in the body of the finding and recommendations is due to the duplication of
questioned costs within a project. See appendix D.


                                                        16
                        SCOPE AND METHODOLOGY

We performed the audit between January and August 2007 at the offices of the cities of Tacoma
and Lakewood, Washington, and the offices of HUD’s Region X Community Planning and
Development Department and Inspector General in Seattle, Washington. The audit covered
homeowner rehabilitation projects with status dates in HUD’s Integrated Disbursement
Information System from July 2004 through February of 2007. We reviewed all 49 homeowner
rehabilitation project files from this period valued at $2,353,419. See appendix E for details.

To accomplish our audit objectives, we reviewed applicable laws, regulations, and other HUD
program requirements including guidance applicable to the HOME program. We analyzed the
Consortium’s action plans, funding agreements, project files, and progress reports. We also
reviewed independent public accountant reports, monitoring reviews, and Authority resolutions.
In addition, we interviewed staff from Tacoma and Lakewood, the Tacoma Community
Redevelopment Authority, and HUD.

We obtained background information from HUD’s Integrated Disbursement and Information
System regarding the commitment and expenditure of HOME funds related to program activities.
Based upon information obtained from this system, we selected homeowner rehabilitation
activities to determine whether they were administered in compliance with program
requirements. We tested activities related to homeowner, property, and rehabilitation eligibility
and contract procurement.

We conducted our audit in accordance with generally accepted government auditing standards.




                                               17
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

           •   Policies and procedures in place to ensure that grant expenditures are eligible and
               adequately supported.

           •   Policies and procedures in place to ensure that HOME grants are carried out in
               accordance with applicable laws and regulations.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable assurance
       that the process for planning, organizing, directing, and controlling program operations will
       meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

       The Consortium did not have
          • Policies and procedures in place to ensure that HOME grant expenditures were
             eligible and adequately supported (findings 1 and 2) and

           •   Policies and procedures in place to ensure that its HOME activities were carried
               out in accordance with applicable laws and regulations (findings 1 and 2).



                                                18
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

         Recommendation                            Unsupported      Funds to be put
                number             Ineligible 1/            2/       to better use 3/
                       1A            $187,399
                       1B                               $48,916
                       1C                                                  $69,000
                       1D                                                 $123,474
                       1E                                                  $70,984
                       2A                              $199,298
                     Total           $187,399          $248,214           $263,458


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures, and any other savings which are specifically
     identified. In this instance, if the Consortium implements our recommendations, it will
     more effectively expend $263,458 in HOME funds. Our estimate reflects only the initial
     year of this recurring benefit.




                                             19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         20
Comment 1


Comment 2




            21
Comment 3




Comment 4


Comment 5




Comment 6


Comment 7




Comment 8




Comment 9




            22
Comment 10




             23
Comment 11




Comment 12




             24
Comment 13




             25
Comment 14




             26
27
Comment 15




             28
Comment 16




Comment 17




             29
30
Comment 18




             31
Comment 19




             32
Comment 20




             33
Comment 21




             34
35
Comment 22



Comment 23




             36
Comment 24




Comment 25




Comment 26




Comment 27




             37
38
Comment 28




Comment 29




Comment 30




             39
Comment 31




Comment 32




Comment 33




Comment 34




             40
Comment 35




             41
Comment 36




Comment 37




             42
Comment 38




Comment 39




             43
Comment 40




Comment 41




             44
Comment 42




Comment 43




             45
46
Comment 44




Comment 45




             47
Comment 46




Comment 47




             48
Comment 48




Comment 49




Comment 50




             49
Comment 51




             50
Comment 52




             51
Comment 53




             52
Comment 54




             53
54
Comment 55




             55
Comment 56




Comment 57




Comment 58


Comment 59




             56
Comment 60




             57
Comment 61




Comment 62




             58
59
Comment 63




Comment 64




             60
Comment 65




             61
Comment 66




             62
63
                           OIG Evaluation of Auditee Comments

Comment 1     The exhibits are not included in the report. They will be provided upon request.

Comment 2     The student is not “…away at school.” He lives near the college in South
              Tacoma. The parents live in Lakewood, less than 15 miles from the college.

Comment 3     24 CFR 5.403 does not contain any information on whether or not college
              students should be included in determining the size of a household.

Comment 4     The HOME regulations at 24 CFR 92.203(a) require that participating
              jurisdictions determine income eligibility of HOME applicants by examining
              source documents (such as wage statements or interest statements) as evidence of
              annual income.

Comment 5     According to HUD's Technical Guide for Determining Income and Allowances
              for the HOME Program, an applicant certification does not provide adequate
              source documentation for the HOME Program. The participating jurisdictions
              must use third party verification or review of documents. Lakewood should have
              obtained income documentation for verification directly from the adult student.

Comment 6     Lakewood did not provide us with the eldest student’s 2004 tax return until it was
              submitted with this response. Lakewood should have obtained payroll
              information for verification of the student's income in September of 2004.

Comment 7     While the tax returns provide the adjusted gross income for tax purposes, it can
              not be used to project anticipated income. The HOME regulations at 24 CFR
              92.203(d)(1) require that, for the purpose of determining eligibility for HOME
              assistance, a participating jurisdiction must project a household’s income in the
              future. The household’s current circumstances are used to project future income.

Comment 8     HOME regulations at 24 CFR 92.203(d)(1) require that the household’s income
              be projected in the future. Lakewood can not use the applicant's 2004 year end
              income to qualify the applicant, since the applicant was accepted into the program
              in September of 2004. The projected household income as of September 2004
              was $53,437 well over the $49,700 limit for a family of four. The applicant was
              not eligible so the HOME funds must be repaid with non-federal funds.

Comment 9     According to the applicant's monthly statement of revenue and expenses, the
              applicant did not have enough excess funds available to provide any significant
              support. The applicant barely had enough income to cover expenses.

Comment 10 The HOME regulations at 24 CFR 92.203(a) require that participating
           jurisdictions determine income eligibility of HOME applicants by examining
           source documents (such as wage statements or interest statements) as evidence of
           annual income. The Consortium should have contacted the college student



                                              64
              directly to verify whether or not he had income. The fact that the student lived in
              an apartment indicated that he probably had some income.

Comment 11 The determination of income is for HOME program eligibility, not for
           underwriting. In order to be eligible the family must be very low income or low
           income. Eligibility for the program must be determined prior to underwriting the
           loan.

Comment 12 No information was provided to change our audit recommendation.

Comment 13 Lakewood provided us with sufficient documentation to change our audit opinion.
           We removed this project from the audit report.

Comment 14 The Consortium is responsible for ensuring that it is compliant with HOME
           regulations which state, "The participating jurisdiction is not required to re-
           examine the family’s income at the time the HOME assistance is provided, unless
           more than six months has elapsed since the participating jurisdiction determined
           that the family qualified as income eligible."

Comment 15 The Lakewood project files contained a pest inspection however there was no
           evidence in the files that a licensed building inspector assisted in the preparation
           and approval of the bid specifications or change orders. These documents did not
           contain any signature or initials of the building inspector. However, Tacoma's
           project files did contain evidence of review by the building inspector.

Comment 16 After the draft report was issued, Lakewood provided us with sufficient
           documentation to change our audit opinion. We removed this project from the
           audit report.

Comment 17 The Consortium's contractor's manual section 2500.200 states "It is the intent of
           these specifications and the Work Schedules that each of the following existing
           items be inspected by a licensed electrician and that any defective items either be
           repaired or replaced as required by local codes." Lakewood's housing repair
           coordinator prepares the bid specifications, however he is not a qualified
           electrician so can not determine if there are any defective items. Therefore, if
           there are no electrical bid specifications, a licensed electrician would not inspect
           the items required by the contractor's manual.

Comment 18 After the draft report was issued, Lakewood provided us with sufficient
           documentation to change our audit opinion. We removed this project from the
           audit report.

Comment 19 After the draft report was issued, Lakewood provided us with sufficient
           documentation to change our audit opinion. We removed this project from the
           audit report.




                                               65
Comment 20 The Consortium does not appear to understand the audit process. E-mails and
           discussions were used to obtain information for the audit. Our final audit position
           is based on documentation in the file and verifiable information provided during
           the audit. This project was removed from the audit report when the Consortium
           provided us with the information needed to change our audit position.

Comment 21 After the draft report was issued, Lakewood provided us with sufficient
           documentation to change our audit opinion. We removed this project from the
           audit report.

Comment 22 The correction notice stated "In fact no sign off [on] any electrical work done."

Comment 23 After the draft report was issued, Lakewood provided us with the electrical
           inspection for this project. We corrected the report accordingly.

Comment 24 There is nothing in the project file to support the building inspectors’ attendance
           at these meetings and/or consultations.

Comment 25 As shown in Exhibit 22, the words were deleted because they were in small print
           and/or overwritten and could not be read. This statement was included in a draft
           finding outline, but was not included in the audit report.

Comment 26 The note in the file dated January 5, 2006 stated " ... she is having trouble with
           her roof leaking near the chimney again. Job was completed in April 2004 so
           warranty was up in April 2005. She's very disappointed in the quality of the
           work, as she had to call [the contractor] ... several times after work was completed
           to come back + repair things (siding falling off + roof leaking)." Bid specification
           2 states "All surfaces shall be inspected by the City of Lakewood Building
           Inspector before covering." The building inspector correction notice stated "No
           inspection done on roof repair and cover with comp new roofing / no inspection
           of SB sheath nailing." The contractor did not comply with the bid specification.
           The certification did not provide us with any additional information that would
           change our audit opinion.

Comment 27 Lakewood did not provide us with any new information that would change our
           audit position. It is unacceptable to expect a homeowner to deal with a leaking
           roof for over a year after the project was completed, despite continued attempts by
           the contractor to fix the problem. If the interim inspection had been done the roof
           may not have leaked.

Comment 28 Tacoma decided not to enforce the loan agreement. The agreement states "The
           entire principal of the Note, and any other amounts secured by the Deed of Trust,
           shall become due and payable, at the option of the Authority, upon the Borrower's
           breach of, or failure to comply with, any covenant, agreement, term or condition
           contained in this Agreement." or any of the Loan Documents or upon the
           occurrence of any of the following: ... (2) Failure to complete the Work within a



                                              66
              reasonable time as determined by the Authority." To be eligible for HOME
              funding, a project must be brought up to code. Therefore, Tacoma should have
              required the homeowner to complete the project, including all code required
              repairs, or repay the loan.

Comment 29 There was no documentation of this conversation.

Comment 30 Ineligible projects must be repaid with non-federal funds.

Comment 31 The Consortium discussed the accounting for this project in August 2006. An e-
           mail from Lakewood to Tacoma stated that the project costs would be charged to
           HOME administration, however the project was closed on November 16, 2006
           with no adjustment to HOME administration.

Comment 32 The Consortium's proposed resolution is responsive to our recommendation.

Comment 33 Tacoma made a draw down of funds even though it knew that the project was not
           eligible. In an August 24, 2006 memo, the Tacoma program auditor stated that
           due to the death of the owner "rehabilitation work was not completed to code, a
           requirement of the HOME program." On November 15, 2006 Tacoma committed
           HOME funds for the project even though the project was ineligible. It was not
           until July 5, 2007 that it stated that it would return the money to HUD.

Comment 34 Project 1206 was included in our report because the project was closed in
           November of 2006. On June 4, 2007 we obtained updated funding records. The
           costs were still charged to the project. Project 1281 was included in our report
           because Tacoma should never have committed and drawn down the HOME funds
           since Tacoma had already determined that the project was not eligible.

Comment 35 In an August 20, 2007 e-mail, the housing division manager stated "Yes, we
           inadvertently used HOME funds for the follow-up repairs without performing a
           full Housing Quality Standards inspection. This work should have been funded
           with CDBG funds." Tacoma did not perform any of the required procedures for
           an eligible HOME project including, but not limited to, an inspection, a
           verification of income, and an after rehabilitation valuation of the residence.
           Ineligible projects must be repaid with non-federal funds.

Comment 36 There is no information in the file to support the assertion that the homeowner
           was going to complete some of the repairs. In a May 31, 2007 e-mail, the
           Lakewood general services director/city clerk stated "A Notice to Proceed has yet
           to be issued on this project and will be reviewing the file and meeting with
           homeowner." The notice to proceed was not issued earlier because the contractor
           was working on other jobs. According to the award letter, the performance bond
           was due on February 27, 2007. However, according to a May 2, 2007 note in the
           file, "Work has not started because we have not received Performance Bond yet.
           Contractor has to finish another job before a bond will be issued."



                                             67
Comment 37 The letter in Exhibit 24 states that the owner was not able to complete any of the
           work. He stated that within a few weeks after signing the documents, his sister
           moved from Seattle to Lakewood. He contacted Lakewood to ask if he could
           have the repairs that he agreed to do rolled into the loan. However this letter was
           dated on September 17, 2007. Lakewood’s files did not include documentation
           that the owner had agreed to complete the bid specification deletions.

Comment 38 The November 9, 2006 agreement was not in the project file and was not
           mentioned in response to our May 31, 2007 e-mail, even though we asked "Please
           let us know how you intend on correcting this project so that it can be funded with
           HOME."

Comment 39 We are not recommending any repayment and we never implied that repairs
           should not be completed. However, the Consortium needs to improve its project
           documentation for its code required deletions so that it is clear that the project was
           brought up to code.

Comment 40 The definition provided is for ineligible improvements, not non-essential and
           luxury items. The contractor's manual ensures that construction complies with
           minimum requirements but also states "unless otherwise specified." This allows
           for the bid specifications to exceed the "acceptable standard-grade products."

Comment 41 Tacoma's guidelines state "All defective code related conditions must be
           addressed. Any remaining loan funds up to the maximum amount approved can
           be utilized by the homeowner(s) to complete needed modernization work.
           However, this portion, also known as general property improvements or ‘wants’,
           cannot exceed 20% of the total estimated cost."

Comment 42 Repairs to ensure that the home is decent, safe and sanitary should be included in
           code required or recommended repairs, not general property improvements. In
           addition, general property improvements should not include luxury items.

Comment 43 The Consortium's response adequately addresses the recommendation.

Comment 44 Tacoma policy states that "All loans shall include a 10% contingency which may
           be used for correction of deficiencies after construction has commenced. All
           administrative or contingency funds determined not to be required will be used to
           reduce the principal amount of the loan." This policy was approved by the
           Tacoma Community Redevelopment Authority.

Comment 45 The recommendation states that the Consortium should not allow excessive
           general property improvements, not "no general property improvements."
           However, the Consortium's response adequately addresses the recommendation.




                                               68
Comment 46 The bid specification number 10 was for new plastic laminate kitchen countertops
           at a cost of $3,222. It was an owner desired item. Change order number 3 deleted
           out bid specification 11, kitchen cabinetry and added a new tile counter at a cost
           of $3,580. However, bid specification 10 for the Formica countertops was not
           deleted. Therefore, the total cost of the countertop was over $6,000.

Comment 47 The exhibit is an email from Lakewood to HUD-OIG, not documentation to
           support their assertions.

Comment 48 There was nothing in the file to support this assertion. On the contrary, bid
           specification number 12 for the doors was wanted by the homeowner as a general
           property improvement. It was not code required or recommended.

Comment 49 Lakewood was unable to provide us with any support stating that the furnace was
           undersized or that the cost of a new furnace was comparable to cost of the heat
           pump. Furthermore, in other HOME assisted projects, electric forced air wall
           heaters were used to heat rooms the furnace did not adequately heat.

Comment 50 The appraisal is supposed to be an independent estimate. Stating the value needed
           could affect the independence of the appraisal.

Comment 51 Lakewood did not provide us with any new information that would change our
           audit position.

Comment 52 Based on the information provided, we agree that the rehabilitation was not an
           addition as defined in the 2003 International Residential Code. However, the roof
           was restructured with a non-standard ceiling and was considered a reconfiguration
           of the home. The $26,800 spent on the rehabilitation of the enclosed porch
           exceeded the benefit received. We changed the audit report to show this was a
           reconfiguration and not an addition.

Comment 53 All of the pictures of this project can be provided upon request. Lakewood
           provided us with a picture of the room that appears to have been taken prior to
           demolition of the room.




                                             69
Comment 54 The recommendation does not require any repayment of funds. The Consortium's
           response adequately addresses the recommendation.

Comment 55 The file documentation does not support these statements. The physician's letter
           stated that she will "eventually find herself on a walker."

Comment 56 Lakewood did not make the entire home handicapped accessible. The
           rehabilitated residence only had a 29 inch opening between the living room and
           bedroom hallway, one inch smaller than the bathroom door. Therefore, the
           homeowner would be unable to access the bathroom or bedrooms if she was using
           a walker. In addition, an ADA approved shower would have fit into the existing
           space in the bathroom.




              Taken from the floor plan for the rehabilitated residence.

Comment 57 As agreed to in the exit conference, we clarified the funding source for the deck in
           the report. There were no pictures taken by Lakewood of the rear of the home
           without the deck. We can provide additional pictures upon request.

Comment 58 We were in full agreement with the Consortium at the exit conference and agreed
           to remove this statement from the report.

Comment 59 Recommendation 1E does not state that the Consortium should disallow all
           general property improvements. It recommends that the Consortium establish and
           implement adequate procedures so that inappropriate building additions are not
           made. The Consortium needs to improve its project file documentation
           procedures.

Comment 60 The Consortium's response adequately addresses the recommendation.

Comment 61 The use of a monitoring checklist is not the same as following up to ensure the
           requirements are being followed.



                                               70
Comment 62 The Consortium's response adequately addresses the recommendation.

Comment 63 Lakewood does not use any standardized method of preparing its cost estimates or
           maintain any work history to assist in determining a reasonable cost. The bid
           specification estimates prepared by Lakewood's housing repair coordinator were
           sometimes significantly different than the contractor bids. For project number
           968 there was only one bid and it was $10,000 or 36 percent over Lakewood's
           estimate. In addition, individual cost items were significantly different. For
           example, Lakewood estimated that the gutter repair would cost $500 but the bid
           came in at $2,975. There was no explanation in the file for the large difference.
           The Consortium needs to improve their cost estimating procedures.

Comment 64 The reasonableness of change orders needs to be documented and reviewed by
           management. The change orders for project number 975 appear to duplicate costs
           in the initial bid specifications as follows:

              •   Bid specification three was for a metal shingle roof and included striping
                  down the south side of the roof, installation of new sheathing (where
                  damaged) and new felt and metal shingles. The owner selected the color
                  (indicating that the entire roof was to be replaced.) Change Order 4 was for a
                  new 30-yr Architectural laminate roof and included tearing off and disposing
                  of entire roof. The initial bid specification called for 1/2 inch sheathing in
                  compliance with Lakewood's Contractor's Manual, while the change order
                  calls for 7/16" sheathing. Sheathing that is 3/8 inch is allowable if it is over
                  existing sheathing. It is not clear from the change order if the sheathing was
                  removed or not. In addition, the Bid Analysis for this item shows that the
                  winning bid was lower than the LPA estimate but considerably higher than the
                  other two bids. Total cost for the new roof was over $11,000, $7,500 in the
                  bid specification and $4,272 in the change order.

              •   Bid specification six is for the repair of structural items noted during the pest
                  inspection at a cost of $1,942. It states "Replace all rotted, deteriorated and
                  damaged materials throughout the house." Change orders two and three, item
                  2 are also for replacement or repair of rotted, deteriorated and bug damaged
                  materials. These change orders total $7,230. In addition, the winning bid
                  amount for the pest inspection was considerably less than Lakewood's
                  estimate of $3,250. The other contractor estimates were also higher than the
                  winning bid, ranging from $2,604 to $4,500.

              In addition, for project number 1189 another apparent duplication of costs was
              noted. The bid specification number 10 was for new plastic laminate kitchen
              countertops at a cost of $3,222. The specification stated "Remove and dispose of
              existing kitchen countertops. Install new 3/4" plywood on top of all new base
              cabinets. Install Formica brand plastic laminate, or pre-approved equal, on all
              base cabinet tops, including garden window. Countertops to include new oak edge
              and 4" minimum back splash to match existing cabinetry." Change order 3 was


                                               71
              added to the contract. It stated, "Owner selected to replace kitchen tile
              countertops with new tile countertops. Installation to include re-leveling of all
              countertops, installation of 3/4" plywood..."

Comment 65 Community Planning and Development's HOME Model Program for Owner-
           Occupied Rehabilitation states that the specialist must verify cost changes as
           reasonable. "The rehabilitation contract should not allow for changes in the work
           write-up without an authorized change order signed by the homeowner, contractor
           and rehabilitation specialist...The specialist must verify cost changes as
           reasonable." Not only is there no reasonableness documentation, no one from
           Lakewood signed the change orders. In addition, Community Planning and
           Development's HOME Monitoring guide for Recordkeeping states: "PJs
           [participating jurisdictions] must establish and maintain complete written records
           to document that HOME requirements have been met." The Consortium did not
           document the change order cost analysis.

Comment 66 The Consortium did not demonstrate that price or cost analyses were performed.
           Therefore, the recommendation should stand.




                                               72
Appendix C

                                       CRITERIA
  A. Regulations at 24 CFR [Code of Federal Regulations] Part 92, Definitions, state,
     “Low-income families means families whose annual incomes do not exceed 80 percent of
     the median income for the area, as determined by HUD with adjustments for smaller and
     larger families … ”

  B. Regulations at 24 CFR [Code of Federal Regulations] 92.203 d.1 state, “The
     participating jurisdiction must calculate the annual income of the family by projecting the
     prevailing rate of income of the family at the time the participating jurisdiction
     determines that the family is income eligible. Annual income shall include income from
     all family members.”

  C. Regulations at 24 CFR [Code of Federal Regulations] 92.203 d.2 state, “The
     participating jurisdiction is not required to re-examine the family’s income at the time the
     HOME assistance is provided, unless more than six months has elapsed since the
     participating jurisdiction determined that the family qualified as income eligible.”

  D. Regulations at 24 CFR [Code of Federal Regulations] 92.205 a.1. state, “HOME funds
     may be used by a participating jurisdiction to provide incentives to develop and support
     affordable rental housing and homeownership affordability through the ... rehabilitation
     of non-luxury housing with suitable amenities …”

  E. Regulations at 24 CFR [Code of Federal Regulations] 92.251.a.1 state, “Housing that
     is constructed or rehabilitated with HOME funds must meet all applicable local codes,
     rehabilitation standards, ordinances, and zoning ordinances at the time of project
     completion … The participating jurisdiction must have written standards for
     rehabilitation that ensure that HOME-assisted housing is decent, safe, and sanitary.”

  F. Regulations at 24 CFR [Code of Federal Regulations] 85.36.f.1 state, “Grantees and
     subgrantees must perform a cost or price analysis in connection with every procurement
     action including contract modifications. The method and degree of analysis is dependent
     on the facts surrounding the particular procurement situation, but as a starting point,
     grantees must make independent estimates before receiving bids or proposals. .... A cost
     analysis will be necessary when adequate price competition is lacking, and for sole
     source procurements, including contract modifications or change orders, unless price
     reasonableness can be established on the basis of a catalog or market price of a
     commercial product sold in substantial quantities to the general public or based on prices
     set by law or regulation. A price analysis will be used in all other instances to determine
     the reasonableness of the proposed contract price.”




                                              73
Appendix D

         SCHEDULE OF QUESTIONED COSTS BY
    RECOMMENDATION AND INTEGRATED DISBURSEMENT
          AND INFORMATION SYSTEM NUMBER
    Grant   Project    Committed Recommendation                                                    Funds to be put
    year    number       amount     number(s)                         Ineligible       Unsupported to better use
    2000        775        $53,398     2A                                                   $4,600
    2000        780        $49,353     2A                                                   $4,780
    2000        786        $62,750     2A                                                   $4,819
    2000        873        $21,106     2A                                                   $1,894
    2000        881        $53,351     2A                                                   $3,770
    2000        883        $52,997     2A                                                   $6,911
    2000        887        $27,587     2A                                                   $1,890
        Total 2000 questioned costs                                                        $28,664
                                       1B                                                  $48,916
    2001        882        $48,916
                                      2A 5                                                  $6,293
    2001        893        $63,523     2A                                                   $1,908
                                       1A                               $ 46,773
    2001        968        $46,773
                                       2A                                                     $8,392
    2001        988        $34,156     2A                                                     $1,020
    2001       1004        $35,154     2A                                                     $4,450
    2001       1005        $65,385     2A                                                     $4,753
    2001       1006        $18,229     2A                                                     $4,400
    2001       1072        $60,903     2A                                                     $8,750
                                       1A                                 $71,594
    2001       1076        $71,594
                                       2A                                                    $10,105
        Total 2001 questioned costs                                      $118,367            $74,197
                                       1A                                 $32,736
    2002        865        $32,736
                                       2A                                                     $2,700
    2002        870        $32,884     2A                                                     $6,667
    2002        871         $6,567     1A                                   $6,567
    2002        886        $34,211     2A                                                     $7,792
    2002        901        $23,490     2A                                                     $1,976
    2002       1090        $64,249     2A                                                     $4,952
    2002       1101        $48,142     2A                                                     $3,700
    2002       1113        $65,818     2A                                                     $4,235
        Total 2002 questioned costs                                       $39,303            $29,332

5
 Amounts in italics represent the duplication of costs within a project. Since we are questioning some of the
projects in their entirety, the questioning of these change orders would result in a duplication of questioned costs.


                                                          74
                                                                                                     Funds to be
    Grant      Project Committed Recommendation                                                      put to better
    year       number    amount     number(s)                      Ineligible     Unsupported             use
    2003           974     $24,878     2A                                              $5,348
                                       1E                                                                  $26,800
     2003       975        $84,449
                                       2A                                               $25,860
     2003       978        $56,399     2A                                                $4,019
     2003       981        $60,581     2A                                                $4,115
     2003      1111        $52,044     2A                                                $4,535
     2003      1112        $59,651     2A                                                $7,460
        Total 2003 questioned costs                                                     $51,337            $26,800
     2004      1093        $64,447     2A                                                $9,901
     2004      1136        $53,642     2A                                                $3,900
     2004      1177        $63,924     2A                                                $4,898
                                       1A                              $18,340
     2004      1189        $65,000
                                       2A                                                $6,080
     2004      1190        $69,000     2A                                                $5,200
     2004      1206         $4,922     1A                               $4,922
        Total 2004 questioned costs                                    $23,262          $23,899
     2005      1179        $34,797     2A                                                $4,615
     2005      1181        $51,327     2A                                                $2,420
     2005      1187        $62,762     2A                                                $3,515
     2005      1213        $35,000     2A                                                $2,100
     2005      1214        $74,300     1E                                                                  $44,184
     2005      1261        $44,500     2A                                                $5,290
     2005      1281         $6,467     1A                               $6,467
        Total 2005 questioned costs                                     $6,467          $17,940            $44,184
     2006      1292        $47,000     2A                                                $7,200
     2006      1293        $55,000     2A                                                $4,315
     2006      1300        $70,000     2A                                               $11,340
     2006      1303        $69,000     1C                                                                  $69,000
        Total 2006 questioned costs                                                     $22,855            $69,000
            Total recommendation 6     1D                                                                 $123,474

                      Appendix A total                               $187,399         $248,214            $263,458




6
    We did not provide details by project for this recommendation because we are not recommending any repayment.



                                                        75
Appendix E

SCHEDULE OF HOMEOWNER REHABILITATION PROJECTS
    FUNDED BY INTEGRATED DISBURSEMENT AND
          INFORMATION SYSTEM NUMBER
Grant     Project                Commitment        Committed         Drawn
year      number        City        date            amount           amount         Status 7     Status date 8
2000           775   Lakewood     June 12, 2002      $    53,398     $ 53,398     Complete         Nov. 3, 2004
2000           780   Lakewood       July 2, 2002     $    49,353     $ 49,353     Complete        Sept 19, 2005
2000           786   Lakewood     July 25, 2002      $    62,750     $ 62,750     Complete         Nov 3, 2004
2000           873   Lakewood     March 4,2003       $    21,106     $ 21,106     Complete         Nov 3, 2004
2000           881   Tacoma        May 6, 2003       $    53,351     $ 53,351     Complete         Nov 4, 2004
2000           883   Lakewood       May7, 2003       $    52,997     $ 52,997     Complete         Nov 4, 2004
2000           887   Lakewood     June 11,/2003      $    27,587     $ 27,587     Complete         Nov 4, 2004
        Total 2000                                   $   320,542      $ 320,542
2001           882   Tacoma        May 6, 2003       $    48,916     $ 48,916     Complete         Nov 4, 2004
2001           893   Tacoma       July 23, 2003      $    63,523     $ 63,523     Complete         Nov 4, 2004
2001           968   Lakewood      Oct 23, 2003      $    46,773     $ 46,773     Complete        Sept 26, 2005
2001           988   Lakewood     May 18, 2004       $    34,156     $ 34,156     Complete         May 9, 2006
2001          1004   Lakewood     July 16, 2004      $    35,154     $ 35,154     Complete        Sept 26, 2005
2001          1005   Lakewood     July 16, 2004      $    65,385     $ 65,385     Complete        Dec 14, 2006
2001          1006   Lakewood     July 16, 2004      $    18,229     $ 18,229     Complete        Sept 26, 2005
2001          1071   Lakewood       Oct 1, 2004      $    16,056     $ 16,056     Complete         May 9, 2006
2001          1072   Lakewood       Oct 1, 2004      $    60,903     $ 60,903     Complete         May 9, 2006
2001          1076   Lakewood      Oct 19, 2004      $    71,594     $ 71,594     Complete         May 9, 2006
        Total 2001                                   $   460,689      $ 460,689
2002           865   Tacoma         Dec 9, 2002      $    32,736     $ 32,736     Complete         Nov 3, 2004
2002           870   Tacoma        Feb 18, 2003      $    32,884     $ 32,884     Complete         Nov 3, 2004
2002           871   Tacoma        Feb 18, 2003      $     6,567     $ 6,567      Complete         Nov 3, 2004
2002           886   Tacoma        June 6, 2003      $    34,211     $ 34,211     Complete         Sept 2, 2005
2002           901   Tacoma       Aug 29, 2003       $    23,490     $ 23,490     Complete         Nov 4, 2004
2002          1090   Lakewood      Dec 21, 2004      $    64,249     $ 64,249     Complete         May 9, 2006
2002          1101   Lakewood      Feb 15, 2005      $    48,142     $ 48,142     Complete         May 9, 2006
2002          1113   Lakewood     June 29, 2005      $    65,818     $ 65,818     Complete        Sept 11, 2006
        Total 2002                                   $   308,097     $ 308,097
2003           974   Lakewood      Feb 21, 2004      $    24,878     $ 24,878     Complete        Sept 26, 2005
2003           975   Lakewood      Dec 23, 2003      $    84,449     $ 84,449     Complete        Sept 26, 2005
2003           978   Lakewood      Feb 10, 2004      $    56,399     $ 56,399     Complete        May 10, 2006
2003           981   Lakewood      Feb 23, 2004      $    60,581     $ 60,581     Complete         May 9, 2006
2003          1111   Lakewood      Apr 22, 2005      $    52,044     $ 52,044     Complete         May 9, 2006
2003          1112   Lakewood     June 29, 2005      $    59,651     $ 59,651     Complete        Sept 11, 2006
        Total 2003                                   $   338,022     $ 338,022



7
  We downloaded the data from the Integrated Disbursement and Information System in March of 2007. The status
is the current status as of March of 2007.
8
  The status date is the latest date that information in the system was updated for that project number.


                                                     76
Grant    Project              Commitment      Committed      Drawn
year     number        City       date         amount        amount        Status   Status date
2004       1093    Tacoma      Feb 10, 2005    $ 64,447      $ 64,447    Complete   Aug 21, 2006
2004       1136    Lakewood   July 28, 2005    $ 53,642      $ 53,642    Complete   May 10, 2006
2004       1177    Lakewood   Aug 11, 2005     $ 63,924      $ 63,924    Complete   Sept 13, 2006
2004       1189    Lakewood   Nov 14, 2005     $ 65,000      $ 45,837    Complete    Feb 12, 2007
2004       1190    Lakewood   Nov 14, 2005     $ 69,000      $ 68,907    Complete   Nov 27, 2006
2004       1206    Lakewood   March 7, 2006    $    4,922    $ 4,922     Complete   Nov 16,/2006
     Total 2004                                $ 320,935     $ 301,679
2005       1179    Tacoma     Aug 16, 2005     $ 34,797      $ 34,797    Complete    May 9, 2006
2005       1181    Tacoma     Aug 16, 2005     $ 51,327      $ 51,327    Complete    May 9, 2006
2005       1187    Tacoma       Oct 6, 2005    $ 62,762      $ 62,762    Complete   Nov 16, 2006
2005       1213    Lakewood    July 3, 2006    $ 35,000      $ 28,798    Complete   Dec 19, 2006
2005       1214    Lakewood    July 3, 2006    $ 74,300      $ 73,652    Underway   Feb 12, 2007
2005       1261    Lakewood   July 22, 2006    $ 44,500      $ 27,710    Complete    Jan 24, 2007
2005       1281    Tacoma     Nov 15, 2006     $    6,467    $ 6,467     Complete   Nov 16, 2006
     Total 2005                                $ 309,153     $ 285,513
2006       1292    Lakewood   Oct 27, 2006     $ 47,000      $ 3,401     Underway   Jan 24, 2007
2006       1293    Lakewood    Oct 27,2006     $ 55,000      $     471   Underway   Jan 24, 2007
2006       1300    Lakewood   Nov 20, 2006     $ 70,000      $ 2,952     Underway   Dec 19, 2006
2006       1302    Lakewood    Jan 16, 2007    $ 55,000      $ 1,793     Underway   Jan 24, 2007
2006       1303    Lakewood   Feb 19, 2007     $ 69,000        $     -   Budgeted    Feb 9, 2007
     Total 2006                                $ 296,000     $ 8,617
   Total Audited                               $2,353,418   $2,023,139




                                               77
